Office of Inspector General



September 30, 2014


MEMORANDUM

TO:                M/OAA, Director, Aman Djahanbani

FROM:              IG/A/PA, Director, Jon Chasson /s/

SUBJECT:           Review of USAID’s Past Performance Evaluations for Partners
                   (Report No. 9-000-14-003-S)

This memorandum transmits our final report on the subject review. In finalizing the report, we
considered your comments on the draft version and have included them in their entirety in
Appendix II.

This report contains seven recommendations to improve USAID’s past performance evaluations
for partners. In comments on the draft report, your office agreed with all seven
recommendations. We acknowledge management decisions on all seven recommendations.
The Audit Performance and Compliance Division will determine final action after your office
completes the proposed corrective actions.

Thank you and your staff for the cooperation and assistance extended to us during this review.




 U.S. Agency for International Development
 1300 Pennsylvania Avenue, NW
 Washington, DC 20523
 http://oig.usaid.gov
CONTENTS
Summary ...................................................................................................................................1

Review Results..........................................................................................................................5

     Users Found Past Performance Information Generally Informative,
     but Noted Limitations.............................................................................................................5

     Procurement Office Efforts Emphasized Evaluation Quantity Over Quality............................8

     Contracting Officers Did Not Properly Document Consideration of Past Performance ........... 9

     USAID Made Significant Progress in 2013, but Fell Short of Its Reporting Target ............... 10

     Agency Has Not Provided Adequate Oversight or Support for Use of Past
     Performance Data in Assistance Awards.............................................................................12

Other Matter ............................................................................................................................14

     Contractor Performance Assessment Reporting System Contains Inaccuracies ................. 14

Recommendations ..................................................................................................................15

Evaluation of Management Comments..................................................................................16

Appendix I—Scope and Methodology ...................................................................................18

Appendix II—Management Comments ..................................................................................20

Appendix III—USAID Users’ Comments on the Past Performance Information
Retrieval System .....................................................................................................................24

Appendix IV—Survey Results ................................................................................................26


Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
COR             contracting officer’s representative
CPARS           Contractor Performance Assessment Reporting System
FAPIIS          Federal Awardee Performance and Integrity Information System
FAR             Federal Acquisition Regulation
OAA             Office of Acquisition and Assistance
OIG             Office of Inspector General
OMB             Office of Management and Budget
PPIRS           Past Performance Information Retrieval System
SUMMARY
More than 7 years after implementing a single government-wide repository of past performance
information on federal contractors, the Office of Management and Budget (OMB) found
performance evaluations incomplete, of poor quality, and lacking sufficient information. Both
OMB and the Government Accountability Office 1 wrote that end users considered performance
evaluations unreliable and irrelevant. OMB issued memorandums in July 2009 and January
2011 calling for improvements and issued another in March 2013 requiring federal agencies to
reach 100 percent reporting compliance by 2015. 2

In January 2013, USAID amended its Automated Directives System (ADS) Chapter 302,
“USAID Direct Contracting,” and issued a Policy Guide for Assessment and Use of Contractor
Performance and Integrity Information to establish management controls for entering the
required information into government-wide systems. USAID’s 2013 policy guide does not
address assistance (grants and cooperative agreements), 3 although ADS 303, “Grants and
Cooperative Agreements to Non-Governmental Organizations,” requires staff making assistance
awards to use past performance information.

Government systems used for entering and retrieving contractor performance and integrity
information include the following:

•   The Contractor Performance Assessment Reporting System (CPARS), a Web-based
    system operated by the Naval Sea Logistics Center, allows government staff to record
    contractor performance.

•   The Past Performance Information Retrieval System (PPIRS), also operated by the Naval
    Sea Logistics Center, receives performance information from CPARS and makes it available
    for staff to use in contractor selection.

•   The Federal Awardee Performance and Integrity Information System (FAPIIS), which
    interfaces with both CPARS and PPIRS, maintains contractor integrity information, such as
    terminations for cause or default and defective cost or pricing data.




1
   Government Accountability Office, Federal Contractors: Better Performance Information Needed to
Support Agency Contract Award Decisions, GAO-09-374, April 2009.
2
  OMB Office of Federal Procurement Policy, “Improving the Use of Contractor Performance Information,”
July 29, 2009; “Improving Contractor Past Performance Assessments: Summary of the Office of Federal
Procurement Policy’s Review, and Strategies for Improvement,” January 21, 2011; and “Improving the
Collection and Use of Information about Contractor Performance and Integrity,” March 6, 2013.
3
  ADS 304.3.2, “Identifying the Intended Purpose of the Award,” states that USAID uses assistance to
financially support, or “transfer” funds to an awardee “in its accomplishment of a public purpose,” and
uses acquisitions (procurement contracts) to obtain, or “exchange” funds for, a contractor’s goods or
services.

                                                                                                     1
Figure 1 illustrates USAID’s performance evaluation process, roles, and responsibilities.
Assessors are typically contracting officer’s representatives (CORs) who provide the assessing
official (the contracting officer) with performance evaluation narratives and proposed ratings. 4
The assessing official is responsible for the accurate and timely review and processing of past
performance evaluations and ratings in CPARS. This report uses the term “contracting staff” to
refer to contracting officers, contract specialists, and other staff receiving direction from the
Office of Acquisition and Assistance (OAA). OAA oversees procurement for USAID and recruits,
trains, and assigns contracting officers.

    Figure 1. USAID Staff Roles and Responsibilities for Entering Information Into CPARS


                                     CPARS




                          Step 1. Assessor (usually the
                          COR) prepares performance
                          evaluation narrative and enters
                          proposed rating




                          Step 2. Assessing official
                          (the contracting officer)
                          validates the proposed
                          narrative and rating, signs,
                          and sends to contractor
                                                            Step 3. Contractor provides
                                                            comments indicating
                                                            agreement or disagreement
                          Step 4. Assessing official
                                                            with narrative and rating
                          reviews contractor comments,
                          modifies CPARS evaluation if
                          required, and closes evaluation
                          if not disputed




                          Step 5. Reviewing official
                          (the assessing official’s
                          supervisor) reconciles disputed
                          evaluation and closes




                          Step 6. Information flows into
                          PPIRS, where source selection               PPIRS
                          officials can retrieve it




Source: Modified from the Contractor Performance Assessment Reporting System brochure, September
2013 (www.cpars.gov).




4
  FAR 1.6 defines a contracting officer as having the “authority to enter into, administer, and terminate
contracts” on behalf of the U.S. Government. CORs are individuals who, in addition to their regular
responsibilities, perform specific technical or administrative functions on behalf of and with written
authorization from the contracting officer.

                                                                                                       2
The Performance Audits Division of the Office of Inspector General (OIG) conducted this review
to determine whether USAID is (1) producing informative contractor past performance and
integrity information and (2) utilizing contractor past performance and integrity information when
making source selection decisions.

OIG administered a survey to four cohorts: assessors, PPIRS users, assessing officials, and
those awarding assistance. Reported results are based on survey results, respondent
comments, and other information sources. We reached these conclusions:

•   USAID users found past performance information generally informative, but noted limitations
    (page 5). About 75 percent of respondents to the OIG survey found that the information was
    detailed, relevant, and valuable and said it had influenced their choice of contractors.
    However, respondents’ comments pointed out PPIRS limitations, including a lack of
    assessor objectivity, a system design not suited to capturing or retrieving USAID-relevant
    information, USAID staff turnover, and different perceptions of data quality standards.

•   Procurement office emphasized evaluation quantity over quality (page 8). USAID updated
    Agency guidance to align its management controls for ensuring quality with the CPARS
    review and approval process. However, most of OAA’s past performance efforts focused on
    completing more evaluation reports instead of on ensuring their quality. OAA has not
    developed performance metrics to measure and assess the quality of USAID’s performance
    evaluations, provided assessing officials with tools to encourage and ensure consistent
    quality, or ensured that assessors understand the characteristics of quality evaluations.

•   Contracting officers did not properly document consideration of past performance (page 9).
    Because of inadequate documentation, we could not determine the extent to which USAID
    staff considered contractor past performance in selecting contractors. Almost all contract
    files reviewed indicated that contracting officers considered contractor integrity, but more
    than one-third of files lacked adequate documentation showing consideration of past
    performance.

•   USAID made significant progress in 2013 but fell short of its reporting target (page 10).
    OAA made past performance reporting a priority in 2013 and claimed to have improved
    reporting compliance from 11 percent to 42 percent; however, it did not achieve the 65
    percent target set by OMB. Factors for the missed reporting goal may include OAA’s
    communications, training, and support not reaching all Agency staff and staff not prioritizing
    performance evaluations.

•   The Agency has not provided adequate oversight or support for use of past performance
    data in assistance awards (page 12). Survey respondents noted problems with guidance
    and obtaining reliable, timely, and comprehensive past performance information. OAA also
    does not comprehensively monitor or evaluate the use of past performance information for
    assistance awards.

While conducting our work, we noted problems with CPARS and USAID data, such as
discrepancies and missing data (page 14). However, we did not assess whether or to what
extent these observations may affect USAID’s reporting accuracy.




                                                                                                3
OIG report findings highlight how USAID staff view the effectiveness of OAA’s efforts. To ensure
that USAID moves forward to strengthen the quality, reporting and use of past performance and
integrity information, we recommend that OAA:

1. Implement a plan to address the limitations identified by survey respondents and other
   challenges known to hinder the collection, use, and quality of performance information, and
   provide OMB and the Naval Sea Logistics Center with a list of systemic challenges and
   recommendations to improve the Contractor Performance Assessment Reporting System.

2. Issue or revise policies to provide more detailed procedures for writing consistent
   evaluations, for documenting past performance and other considerations, for helping
   contracting officers communicate and enforce consistent performance evaluations, and for
   measuring and assessing evaluation quality.

3. Develop methods to improve consistency among its contracting officers, including their
   timely review of contractor performance evaluations and their documented use of past
   performance and integrity information when selecting contractors.

4. Test alternative and innovative methods to more effectively organize and communicate the
   office’s policy, guidance, and resources, and to better support contracting and
   noncontracting staff at the missions and in Washington.

5. Implement a plan to widely distribute and monitor the training of both contracting and
   noncontracting staff at the missions and in Washington on past performance issues
   identified in this review.

6. Implement a strategy with the Administrator’s assistance to increase the accountability of
   noncontracting staff for completing quality performance evaluations.

7. Issue or revise policy to provide clear, detailed procedures for obtaining and using reliable
   past performance information that assesses applicant suitability when awarding assistance
   instruments, and ensure consistency among its agreement officers, including their use and
   documentation of past performance information, when awarding assistance instruments.

Detailed results appear in the following section, followed by recommendations on page 15.
Appendix I contains information on the scope and methodology. Appendix II presents OAA’s
management comments; our evaluation of them is on page 16. Appendix III summarizes USAID
users’ comments on PPIRS. Appendix IV provides the OIG survey results.




                                                                                              4
REVIEW RESULTS
Users Found Past Performance
Information Generally Informative,
but Noted Limitations
Federal regulation requires federal agencies to consider past performance information when
awarding contracts. To help ensure that federal staff have access to useful and meaningful
performance data for selecting contractors, OMB issued memos in 2009 and 2011 stating that
performance evaluations should provide clear, comprehensive, accurate, and constructive
information detailed enough to justify the performance ratings. The Government Accountability
Office and OMB also recognized that user confidence depends on reliable and relevant
information. OMB asked agencies to enhance management oversight by identifying
improvements to CPARS and PPIRS. The Naval Sea Logistics Center also solicits
recommendations for improvement.

OIG’s survey indicates that USAID users generally considered information in PPIRS informative
(Table 1).

           Table 1. User Satisfaction With Past Performance Information in PPIRS

                                                                                        Experienced
                                      Statement                                          Users Who
                                                                                         Agreed (%)
Information influenced my source selection decision                                          79
Information was valuable                                                                    78
Information provided enough detail for informed decisions during contractor selection       74
Information was relevant                                                                    74
Information accurately reflected performance                                                70
Information was easy to use                                                                 70
Information provided enough detail to justify the performance rating                        67
Information was comprehensive                                                               63
Information was consistently clear                                                          59

However, survey respondents also identified limitations to the PPIRS information’s usefulness.

Respondents commented that evaluation narratives lack objectivity and do not match ratings,
which tend to be more positive. Respondents also acknowledged assessors’ reluctance to give
negative evaluations because contractors often refuse ratings other than exceptional, and
settling disputes is time-consuming. Others do not give negative performance assessments
because of poor documentation. One contracting officer said CORs often lack the confidence to
hold contractors to contract terms or feel that contractor weakness reflects poorly on them.
Nearly a quarter of PPIRS users (23 percent) view the information in PPIRS as unreliable due to
the evaluating CORs’ close working relationship with the contractors. Because evaluations are
often vague, many PPIRS users indicated they contact past CORs to obtain more reliable
information.


                                                                                                      5
The Navy-maintained past performance systems do not meet all USAID-specific past
performance information needs. USAID users noted challenges in searching for relevant
evaluation reports in PPIRS. For example, PPIRS may contain multiple evaluations for a
contractor that has worked in sectors such as agriculture or education, which are not relevant to
a USAID contracting officer seeking a contractor for a health project. Additionally, information
appears by business names, not by individuals’ names. USAID staff noted that the quality of a
contractor’s performance depends not on the contracting business, but on the project team
hired by the business, which differs by country and project. Respondents suggested that
personnel information and descriptions of contractors’ innovative approaches for addressing
sector-specific challenges would be more relevant indicators of future performance.

Frequent staff reassignments limit the details provided in performance evaluations and therefore
the usefulness of past performance information. USAID assessors acknowledged evaluating the
performance of contractors of which they had limited knowledge. More than half (57 percent) of
assessing officials indicated that assessors’ reassignments affected performance evaluation
quality, and 38 percent acknowledged that their own reassignments affected oversight.

To mitigate the effect of staffing changes, OMB requires assessors to document performance
issues as they arise instead of at the end of performance periods, when critical details may have
been forgotten. Likewise, OAA’s policy guide requires assessors or assessing officials to start or
complete evaluations before leaving their posts. Yet while most assessors (83 percent) reported
that they regularly maintain files and communications, assessing officials and PPIRS users
mentioned they have encountered insufficient documentation.

Different perceptions of data quality standards may also affect information usefulness.
Perceptions of data quality standards varied between contracting officer and COR respondents,
and between direct hires and Foreign Service Nationals. 5 OIG’s survey estimates that CORs
make up about 76 percent of the USAID staff evaluating contractor performance in CPARS.
Contracting officers, who use PPIRS for selecting contractors, generally viewed information
quality—relevance, comprehensiveness, accuracy, and clarity—more positively than did CORs
(Table 2), who may better understand the data limitations since they work directly with the
contractors.

Direct-hire CORs consistently rated statements and situations more negatively than did Foreign
Service National CORs (Table 3), with views of one characteristic (ease of use) differing by as
much as 44 percent. Only 53 percent of direct-hire CORs felt PPIRS provided enough detail to
justify the contractor’s performance rating, compared with 82 percent of Foreign Service
National CORs. Survey results show that Foreign Service Nationals and direct hires play
significant and nearly equal roles in performance evaluations, with each group representing
42 percent of the evaluating CORs. Disparities in their views lead to inconsistent ratings and
impressions of bias and inaccuracy, undermining both user reliance on and the effectiveness of
PPIRS.




5
 USAID direct-hire employees are noncontract, civilian employees. Foreign Service Nationals are non-
U.S. citizens who work under contract to USAID missions abroad.

                                                                                                  6
                     Table 2. Satisfaction With PPIRS: Differences Between
                           Contracting Officers and Direct-Hire CORs

                                    Statement                                            Contracting
                                                                                       Officers/Direct-
                                                                                       Hire CORs Who
                                                                                         Agreed (%)
Information influenced my source selection decision                                         75 / 78
Information was valuable                                                                    74 / 62
Information provided enough detail for informed decisions for contractor
                                                                                            62 / 53
selection
Information was relevant                                                                    75 / 57
Information accurately reflected performance                                                73 / 62
Information was easy to use                                                                NA / 48
Information provided enough detail to justify the performance rating                        61 / 55
Information was comprehensive                                                               51 / 43
Information was clear                                                                       56 / 40

Note: Contracting officers are direct hires. This table compares direct-hire CORs with contracting officers.

                     Table 3. Satisfaction With PPIRS: Differences Between
                     Foreign Service National CORs and Direct-Hire CORs

                                                                                       Foreign Service
                                                                                        National CORs/
                                   Statement
                                                                                       Direct-Hire CORs
                                                                                       Who Agreed (%)
Information influenced my source selection decision                                         86 / 78
Information was valuable                                                                    94 / 62
Information provided enough detail for informed decisions for contractor
                                                                                            82 / 53
selection
Information was relevant                                                                    88 / 57
Information accurately reflected performance                                                85 / 62
Information was easy to use                                                                 92 / 48
Information provided enough detail to justify the performance rating                        81 / 55
Information was comprehensive                                                               77 / 43
Information was clear                                                                       72 / 40

Respondents provided additional suggestions to improve PPIRS in the areas of past
performance information quality, guidance, training, USAID support, and the CPARS platform.
Comments are summarized in Appendix III.

Regarding the above limitations, OAA cannot make USAID-specific changes to CPARS or
PPIRS, as these systems are maintained externally and used by the entire federal government.
However, USAID can develop USAID-specific guidance and management controls to mitigate
limitations and provide input to OMB and Naval Sea Logistics Center for system-wide CPARS
improvements, as we advise in Recommendation 1 at the end of this report.



                                                                                                           7
Procurement Office Emphasized
Evaluation Quantity Over Quality

OMB’s 2009 memorandum required federal agencies to incorporate management controls and
develop metrics to measure, evaluate, and validate performance evaluation quality regularly.
OMB’s 2011 memorandum required federal agencies to strengthen their guidance on contractor
performance reporting.

USAID updated Agency guidance in 2013 to address OMB requirements and changes in federal
regulations on the collection of past performance information. The guidance established an
evaluation review and approval process, delegating to assessing officials responsibility for
reviewing evaluations’ quality and validating assessors’ proposed ratings and remarks.

Although OAA aligned its management controls for ensuring quality with the CPARS review and
approval process, most of OAA’s past performance efforts emphasized increased reporting. The
office did not fully develop or disseminate quality measures, tools, and training, as detailed
below:

1. OAA has not developed performance metrics to measure and assess the quality of USAID’s
   performance evaluations.

2. OAA has not provided its assessing officials with tools to encourage and ensure consistent
   quality. Assessors noted that those who review evaluations have inconsistent expectations,
   with 46 percent of assessors saying expectations varied by assessing official, and 42
   percent noting differences between missions or program offices.

3. OAA has not ensured that assessors understand the characteristics of quality evaluations.
   More than a quarter (28 percent) of assessing officials felt that OAA did not provide clear
   management guidance to help assessors prepare informative performance evaluations.

4. OAA also has not made training widely available to missions, effectively conveyed guidance,
   or publicized available resources to assessors (detailed in a later finding). Assessing
   officials noted they must do multiple reviews to strengthen evaluations, in large part because
   assessors lack training.

OMB’s 2013 memorandum set quantitative goals for all agencies, but did not establish clear
quality metrics, leading OAA to focus on quantity over quality.

Without developing quality metrics, OAA cannot characterize the quality of performance
evaluations generated by USAID staff or systematically pinpoint needed improvements, such as
additional guidance, training, or better communication. We underscore in Recommendations 2,
3, 4, and 5 at the end of the report the need for quality measures, detailed guidance, widely
distributed training, and improved communication and outreach.




                                                                                               8
Contracting Officers Did Not
Properly Document Consideration
of Past Performance
Documentation acts as a management control to ensure proper consideration of and
compliance with federal regulations. Federal Acquisition Regulation (FAR) 15.3 requires
contracting officers to consider contractor past performance when negotiating competitive
contracts exceeding certain dollar amounts and to document their consideration of contractor
strengths, deficiencies, weaknesses, and risks in the contract file. FAR 9.1 requires contracting
officers to use both past performance and integrity information in making a separate
determination on whether the potential contractor is responsible and has the resources and
integrity to carry out the assignment. FAR 15.3 differentiates past performance assessments
from FAR 9.1 responsibility determinations.

Many contract files we reviewed lacked evidence of past performance consideration during
source selection. 6 Of the files provided, 90 percent indicated that contracting officers used
integrity information as required by FAR 9.1. However, more than one-third (38 percent) did not
contain adequate documentation to address the past performance requirements in FAR 15.3.
Additionally, nearly one-third (31 percent) of the contract files reviewed rolled both past
performance and integrity considerations into the responsibility determination. As a result of
inadequate documentation, OIG could not determine the extent to which USAID staff considered
contractor past performance in selecting contractors.

OAA’s 2013 policy guide does not clearly differentiate the documentation requirements under
FAR 15.3 and 9.1. The majority of assessing officials (83 percent) reported moderate to
extensive awareness of the 2013 policy guide, yet 24 percent indicated that OAA could provide
clearer guidance on recording past performance consideration in award decisions.

OAA’s limited ability to monitor and evaluate the use of past performance and integrity
information in contractor selection may also contribute to the lack of documentation. OAA relies
on contracting officers to include details for considering past performance information in
solicitations, thoughtfully consider the information obtained, and maintain contract files that
document consideration. OAA’s Evaluation Division, which spot-checks contract files from a few
regions and bureaus annually, provides the only direct oversight for contracting officers. The
evaluations do not examine in depth the use of past performance and integrity information,
contracting officer consistency in assessing the information, or needed guidance or training.

Without proper documentation, OAA cannot determine the extent to which USAID staff complied
with FAR 15.3 and 9.1 in selecting contractors. In addition, OAA’s limited evaluations do not allow
OAA to monitor for consistency, assess the use of past performance information in selecting
contractors, or identify needed guidance and training. Recommendations 2 and 3 at the end of
this report urge OAA to clarify requirements and to ensure consistent contracting officer practices.




6
    OIG requested 81 contract files from contracting officers but received only 54.

                                                                                                  9
USAID Made Significant Progress in
2013, but Fell Short of Its
Reporting Target
OMB’s 2013 memorandum stressed the timely entry of contractor performance into CPARS and
set compliance goals for all agencies. It required USAID to report the performance of 65 percent
of contractors by 2013, 80 percent by 2014, and 100 percent by 2015. OMB also asked federal
agencies to address training needs, implement report evaluation compliance, practice
“aggressive oversight, implement rigorous internal controls,” and develop strategies for
evaluating and validating timeliness, including addressing delinquent or incomplete reports.

OAA made past performance reporting a priority in 2013 to meet the goal. The office added to
its home page a past performance toolbox with USAID-specific references and Web links to
official CPARS and PPIRS Web sites, training, and other resources. OAA also developed a
2013 past performance reporting improvement plan. In 2013, OAA updated its past performance
policy guide, set quarterly goals, provided USAID-specific training, and designated 2 months as
Past Performance Months. During these months, OAA hosted three CPARS workshops and
devoted 3 days to assistance with performance reporting. OAA issued Agency-wide notices
announcing updated guidance, stressing the significance of past performance evaluations, and
promoting available training. OAA sent monthly status reports listing delinquent evaluations to
senior Agency officials for each mission and Washington bureau and office. OAA also
communicated reporting status and past performance developments to contracting staff through
its weekly newsletter. According to OAA, reporting compliance improved from 11 percent in
2012 to 42 percent by October 2013.

Despite OAA’s efforts, USAID did not meet its 2013 reporting target, and many of OAA’s
communiques, training sessions, and other forms of support primarily reached Washington and
contracting staff. For example:

•     OAA issued Agency-wide notices to announce the updated past performance guidance,
      training, and requirements; however, only 50 percent of assessors said guidance had been
      widely communicated, suggesting OAA’s communication may not be effective.

•     During the Past Performance Months, OAA scheduled workshops and provided 3 days of
      one-on-one writing assistance for Washington staff. OAA provided missions with a video
      conferencing option; however, none participated. OAA also canceled two workshops
      because of lack of interest.

•     OAA created a training course with a CPARS component for USAID contracting staff and
      noncontracting office CORs, 7 but provided the course only to missions and Washington
      bureaus and offices that request and fund it. Consequently, OAA held the training at only
      one of more than 65 missions in 2013 and scheduled 2014 training for three other missions.
      Training sign-in sheets showed that contracting staff made up most of the trainees, with no
      project staff in attendance. OAA officials indicated that USAID staff can take nonmandatory,
      government-wide, Web-based CPARS training provided by the Naval Sea Logistics Center;
      however, the majority of assessors in the survey (74 percent) said they never received any
      CPARS training.


7
    OIG did not assess the comprehensiveness or effectiveness of OAA’s training as part of this review.

                                                                                                          10
Survey results suggest other factors for the missed reporting goal. They include performance
evaluations not being integrated into USAID’s culture and operations, management not valuing
them, and both assessors and assessing officials prioritizing them lower than their other
responsibilities. Staff workload and perception of impact both pose challenges for completing
performance evaluations. Nearly half (47 percent) of USAID staff viewed performance
evaluations as time-consuming and burdensome. Survey results indicate that most assessors
(66 percent) typically finish their evaluations in less than a day, but some (22 percent) require
up to a week, and others (12 percent) need more time. One assessing official noted greater
delays with negative evaluations, which require management clearances. Only 55 percent of
direct-hire assessors felt their evaluations influenced source selection, reducing incentive to do
them. Respondents suggested better coordination and support between the contracting and
noncontracting offices and timing evaluations to coincide with scheduled projects.

OAA officials attributed USAID’s limited compliance to their lack of authority over noncontracting
office CORs. (Figure 2 illustrates USAID’s general reporting structure.) Only 48 percent of
assessing officials believed they could hold assessors accountable for completing evaluations.

                             Figure 2. USAID Reporting Structure


                         Washington Bureaus and Offices and Overseas Missions




                     Office of Acquisition and
                            Assistance                       Noncontracting Office
                       (Contracting Office)                         Staff
                                Staff




                     •   Contracting
                         Officers                        •    CORs
                     •   Contract Specialists            •    Non-CORs
                     •   CORs

                    Note: Solid lines are reporting or supervisory lines; the dashed
                    line indicates coordination only.

To encourage compliance, OAA provided senior mission and Washington officials with monthly
status reports of delinquent evaluations; however, OAA indicated mixed outcomes. OAA also
considered giving incentives for timely evaluations, but only 31 percent of survey respondents
considered incentives and recognition effective motivators. In comparison, 76 percent of
respondents considered immediate management directives effective, and 60 percent thought
factoring completion of contractor evaluations into performance appraisals would be effective.

Although 28 percent of USAID CPARS assessors acknowledged that they rarely or never
complete evaluations on time, survey results in Table 4 suggest that other reviewers and
approvers directly under OAA’s authority also cause delays.




                                                                                               11
              Table 4. Timeliness of CPARS Completion, Review, and Approval

                                                                                        Oversight Staff
                                     Statement
                                                                                        Who Agreed (%)
Assessors completed CPARS evaluations within 30 days of the end of the annual                  34
rating period, or the end of the contract
Assessing officials validated CPARS reports within 30 days of report completion                57

Contractors commented on their performance reports within 30 days of receipt                   57
Assessing officials finalized CPARS reports within 30 days after receiving contractor
                                                                                               57
input or after contractor input was due

When contractors disputed their evaluations, reviewing officials made final                    45
determinations on report content within 30 days
Assessors also noted that CPARS limitations and delayed technical and systems support from
the contracting office discourage timely evaluations. Table 5 lists the issues assessors raised.

               Table 5. Technical CPARS Issues That USAID Assessors Raised

    Topic                                                Comment
USAID            • Preloaded contract information was inaccurate, with long correction times
Technical        • CPARS access was not provided timely
Support          • Password lockouts were addressed slowly

CPARS            • USAID staff continued to receive automatic reminders for completed evaluation
                     reports and for contracts that had been reassigned
                 •   Some staff did not receive automatic reminders or received them irregularly
                 •   The automatic log-out time for CPARS was too short
                 •   Incomplete actions from past years prevented entries in subsequent years
                 •   Assessing officials were able to view CPARS evaluations only for contracts they
                     initiated, not contracts assigned to them, making contract and assignment errors
                     difficult to correct


Note: Survey respondents provided the above comments. OIG did not assess their validity or the degree
to which OAA has addressed the issues.

OAA has invested time and resources in improving contractor performance reporting. Although
OAA made strides in 2013, surveyed CORs asked for better communication, guidance, and
training. To help the Agency reach OMB’s reporting target of 100 percent by fiscal year 2015,
we urge OAA to improve its communication and outreach, make training widely available, and
work with the Administrator to increase the accountability of noncontracting staff, as noted in
Recommendations 1, 4, 5, and 6 at the end of this report.

Agency Has Not Provided Adequate
Oversight or Support for Use of Past
Performance Data in Assistance Awards
USAID’s Procurement Executive’s Bulletin No. 2011-02 requires agreement officers (the
counterparts of contracting officers for assistance awards—grants and agreements) to carry out


                                                                                                        12
due diligence to determine awardee responsibility. ADS 303, “Grants and Cooperative
Agreements to Non-Governmental Organizations,” requires the use of past performance
information in awarding grants and cooperative agreements but limits the sources of that
information to PPIRS and past performance references provided by applicants, unless expressly
stated in the application request. After assistance awards are made, ADS does not require
agreement officers to evaluate awardees’ performance.

Most survey respondents (94 percent) considered past performance information useful in
making assistance awards, and 85 percent reported that they obtained past performance
information when awarding assistance. Yet they identified the following problems with the
guidance, the available information, and the process of obtaining and using information:

•   Guidance not clear. OAA’s Web site offers a list of regulations, policies, and guidance on
    assistance; however, OAA officials noted that only ADS 303 and Procurement Executive’s
    Bulletin 2011-02 pertain to past performance. One-third of survey respondents indicated that
    USAID does not provide clear guidance on using past performance information in making
    assistance awards.

•   Information from some references not reliable or timely. Only 55 percent of respondents
    were able to access reliable past performance information on assistance awards from the
    references provided. Others commented on the lack of timely response from references.

•   Available information not comprehensive. One respondent noted that a recipient’s financial
    management history would be useful for determining responsibility. Another respondent
    noted the usefulness of recording a recipient’s capacity to perform the work, its
    understanding of USAID requirements, and any involvement in fraudulent activities.

•   Use of information not adequately monitored. Except for limited spot checks by its
    Evaluation Division, OAA does not comprehensively monitor or evaluate the use of past
    performance information for assistance awards.

•   No internal database. No government-wide past performance information database like
    PPIRS exists for assistance awards, nor does USAID maintain an internal database.
    According to 88 percent of respondents, a centralized past performance database for
    assistance would be useful. OAA officials, however, believe that such a system must be
    established government-wide.

OAA officials indicated that they did not champion past performance activities for assistance
awards because OMB’s mandates do not include assistance.

According to OAA, USAID devoted 48 percent of fiscal year 2012 spending to assistance awards,
compared with 32 percent for contracts. Limited and poorly publicized resources on past
performance information increase the risk of USAID making awards to irresponsible partners.
Without systematic oversight, OAA also cannot verify the extent to which USAID staff considered
past performance or identify areas needing additional guidance or training. Therefore, we urge
OAA to implement Recommendations 3, 4, and 7 at the end of this report.




                                                                                             13
OTHER MATTER
Contractor Performance Assessment
Reporting System Contains Inaccuracies
To determine the reliability of CPARS and USAID data, OIG attempted to reconcile CPARS
information with USAID’s current Global Acquisition and Assistance System; its previous and
now inactive Electronic Procurement Information Collection System; and the government-wide
Federal Procurement Data System – Next Generation. The current system allows the Agency to
manage all acquisition and assistance awards through a single online system. Contractual
actions from it automatically transfer to the government-wide system, which collects all federal
procurement data. Every month, OAA manually identifies contracts in the inactive system not
entered into the current one, and contracts not maintained in any system for transfer to the
government-wide system, which feeds into CPARS. Because OAA does not have documented
reconciliation procedures, OIG was unable to test the different systems thoroughly for data
reliability. While we determined that CPARS data were reliable for our sample, we noted the
following problems:

•   Chronological discrepancies with CPARS data (e.g., contracts ending on the contract start
    date).

•   Incomplete or incorrect fields (e.g., incorrect or missing past performance periods,
    completion date omissions, or missing due dates) that could lead to the inaccurate
    designation of evaluation status (current, due, overdue, final, or unregistered).

•   CPARS automatically overriding the delinquent status of old performance evaluations upon
    the entry of new evaluations, thus limiting accountability for incomplete past entries.

We did not assess whether or to what extent these observations may affect reporting accuracy.
Therefore, we make no recommendation but are notifying OAA of our concerns.




                                                                                             14
RECOMMENDATIONS
Recommendation 1. We recommend that the Office of Acquisition and Assistance implement a
plan to address the limitations identified by survey respondents and other challenges known to
hinder the collection, use, and quality of performance information and provide the Office of
Management and Budget and the Naval Sea Logistics Center with a list of systemic challenges
and recommendations to improve the Contractor Performance Assessment Reporting System.

Recommendation 2. We recommend that the Office of Acquisition and Assistance issue or
revise policies to provide more detailed procedures for writing consistent evaluations, for
documenting past performance and responsibility considerations, for helping contracting officers
communicate and enforce consistent performance evaluations, and for measuring and
assessing evaluation quality.

Recommendation 3. We recommend that the Office of Acquisition and Assistance develop
methods to improve consistency among its contracting officers, including their timely review of
contractor performance evaluations and their documented use of past performance and integrity
information when selecting contractors.

Recommendation 4. We recommend that the Office of Acquisition and Assistance test
alternative and innovative methods to more effectively organize and communicate the office’s
policy, guidance, and resources and to better support contracting and noncontracting staff at the
missions and in Washington.

Recommendation 5. We recommend that the Office of Acquisition and Assistance implement a
plan to widely distribute and monitor the training of both contracting and noncontracting staff at
the missions and in Washington on past performance issues identified in this review.

Recommendation 6. We recommend that the Office of Acquisition and Assistance implement a
strategy with the Administrator’s assistance to increase the accountability of noncontracting staff
for completing quality performance evaluations.

Recommendation 7. We recommend that the Office of Acquisition and Assistance issue or
revise policy to provide clear, detailed procedures for obtaining and using reliable past
performance information that helps make positive determinations of applicant responsibility
when awarding assistance instruments; and ensure consistency among its agreement officers,
including their use and documentation of past performance information, when awarding
assistance instruments.




                                                                                                15
EVALUATION OF MANAGEMENT
COMMENTS
OAA agreed with all seven recommendations and provided detailed information regarding
planned corrective actions. We agree with OAA’s management decisions on all
recommendations. A detailed evaluation of management comments follows.

Recommendation 1. OAA agreed with the recommendation. OAA decided to implement a plan
to address key limitations identified by survey respondents and to write a memorandum to OMB
and Naval Sea Logistics Center detailing suggestions for improvement. We acknowledge OAA’s
management decision, with final action expected by September 30, 2015.

Recommendation 2. OAA agreed with the recommendation and made a management decision
to clarify and supplement its policy based on the information in this report. Final action,
expected by September 30, 2015, requires OAA to include procedures for implementing
consistency, for documenting consideration of past performance information, and for measuring
and assessing evaluation quality. We acknowledge OAA’s management decision.

Recommendation 3. OAA agreed with the recommendation and proposed to (1) provide OAA
divisions and programming offices with accountability reports, (2) make auditing of past
performance assessments part of the Evaluation Division reviews, (3) maximize the use of the
Agency Secure Image & Storage Tracking System to improve past performance assessment
consistency and oversight, (4) improve access to reference materials, (5) promote training
enrollment and completion, and (6) publicize guidance. Final action is expected by
September 30, 2015. We acknowledge OAA’s management decision.

Recommendation 4. OAA agreed with the recommendation and proposed to reorganize and
add to the past performance information on its Web site, compile a distribution list for CORs,
create a section for CORs in my.usaid.gov, and encourage staff to follow my.usaid.gov
communications on past performance. Final action, expected by September 30, 2015, requires
OAA to test, or demonstrate, that these methods more effectively organize and communicate
OAA’s policy, guidance, and resources and better support USAID staff at the missions and in
Washington. We acknowledge OAA’s management decision.

Recommendation 5. OAA agreed with the recommendation and proposed to adapt its CPARS
workshop into an online training course, require CPARS training for COR designation, upload
past performance training certificates into the Federal Acquisition Institute Training Application
System, and regularly publicize training courses. OAA officials expected evidence
demonstrating implementation of these actions to be available by September 30, 2015. We
acknowledge OAA’s management decision.

Recommendation 6. OAA agreed with the recommendation and made a management decision
to ask the Administrator both to issue an annual notice and to communicate regularly with
USAID’s assistant administrators and mission directors on past performance compliance. OAA
officials expected evidence demonstrating implementation of this corrective action to be
available by September 30, 2015. We acknowledge OAA’s management decision.



                                                                                               16
Recommendation 7. OAA agreed with the recommendation and proposed to review all
regulations, policies, and guidance for assistance awards and revise ADS 303 to address the
topics identified in the finding. In addition, OAA proposed to maximize its use of the Agency
Secure Image & Storage Tracking System to review agreement officers’ use and documentation
of past performance information. We acknowledge OAA’s management decision, with final
action expected by September 30, 2015.




                                                                                          17
                                                                                    Appendix I



SCOPE AND METHODOLOGY
Scope
OIG conducted this review in accordance with the Quality Standards for Inspection and
Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency.

The review was to answer two questions:

1. Is USAID producing informative contractor past performance and integrity information?

2. Is USAID utilizing contractor past performance and integrity information when making source
   selection decisions?

The scope of the review covered performance evaluation reports due and source selections
made from October 1, 2011, to May 29, 2013. In addition to contractor performance and
integrity information, OIG reviewed OAA’s guidance for using past performance information in
making assistance awards. OIG performed fieldwork from May 29 to September 19, 2013. We
conducted additional fieldwork from January 8 to February 12, 2014. This work focused on
OAA’s activities occurring after September 19, 2013, including the establishment of its
professional development and training division. The Performance Audits Division managed the
review and conducted fieldwork in Washington, D.C.

Methodology
In planning and performing the review, we studied applicable regulations and OMB
memorandums to identify past performance expectations and requirements. We reviewed
USAID and OAA policy and guidance and met with officials in OAA to obtain an understanding
of its activities and management controls. We also worked with OAA technical staff and staff at
the Naval Sea Logistics Center, which maintains CPARS, to understand the systems involved
with past performance information. We obtained copies of the CPARS database, as well as
copies of USAID databases feeding into CPARS.

To answer the first review objective, we assessed compliance, timeliness, and completeness
through database and survey analyses; consistency, comprehensiveness, clarity, organization,
and formatting through a survey of PPIRS users; and accuracy through a survey of employees
entering data into CPARS and through a review of the contracting office’s oversight process.

OAA staff provided us with a list of contracting officers and CORS involved in awarding
contracts and preparing performance evaluations from October 1, 2011, to May 29, 2013. Those
961 individuals formed the universe for our testing. Of these, 904 received the survey and
73 percent responded. We did not project the survey results to all USAID employees.

To answer the second review objective, we analyzed documents in 54 out of 81 randomly
selected contract files. We determined whether the files contained documentation to meet
requirements in FAR 15.3 and FAR 9.1. We could not project to the entire universe of contract


                                                                                            18
                                                                                  Appendix I


files because we did not receive all requested contract files. We also gauged USAID’s
consideration of past performance and integrity information through survey questions.

We interviewed OAA staff and reviewed documentation on OAA’s efforts to address contractor
past performance. We examined documentation and OAA’s policy guide for activities supporting
quality evaluations. We interviewed OAA staff about USAID’s results on the 2013 performance
evaluation reporting target. We also reviewed the Agency’s guidance on using past performance
and integrity information for assistance agreements and interviewed OAA staff about plans to
improve processes and management controls for assistance agreements.




                                                                                          19
                                                                                               Appendix II



MANAGEMENT COMMENTS

                                                                          September 26, 2014

MEMORANDUM FOR:                  IG/A/PA Director, Jon Chasson

FROM:                            M/OAA Director, Aman Djahanbani /s/

SUBJECT:                         OIG Review of Past Performance Evaluations for Partners


The Bureau for Management, Office of Acquisition and Assistance (M/OAA) has received and
considered the information and recommendations in your Review of Past Performance Evaluations for
Partners. Thank you for the opportunity to review the report and to provide comment.

Improving USAID past performance reporting is a key priority for the Agency. The Agency is dedicated
to improving contractor past performance evaluations. We have made more progress on past performance
in the past two years than the Agency has been able to do ever before. From January 2013 to September
2014, the Agency increased its reporting rate from 10% to 60%. We made this progress through a
combination of strategies: increased communication to Agency staff and leadership, an extensive, on-
going revision of policy, and the development and promotion of new training. We have also instituted a
comprehensive tracking system to better hold Agency staff accountable for progress.

To a large extent, OIG’s report calls for improvements to actions already taken or that are in process. We
welcome the insight OIG gained through its research and have carefully considered the content and
recommendations contained in this report.

We find the seven recommendations included in the report to be acceptable. In the attached document,
we have proposed several courses of action that we believe will best address the issues identified and also
build on our prior success.

Attachments:
OIG Recommendations and M/OAA’s Response




                                                                                                        20
                                                                                           Appendix II


Attachment 1:

M/OAA’s Response to OIG Recommendations

Recommendation 1. We recommend that the Office of Acquisition and Assistance implement a plan to
address the limitations identified by survey respondents and other challenges known to hinder the
collection, use, and quality of performance information and provide the Office of Management and
Budget and the Naval Sea Logistics Center with a list of systemic challenges and recommendations to
improve the Contractor Performance Assessment Reporting System.

We agree with the recommendation. Consistent with this recommendation, we will:

   •    Write a memorandum to OMB and NAVSEA detailing our suggestions for improvement.
   •    Create and implement a plan to address some of the key limitations identified by survey
        respondents.

Recommendation 2. We recommend that the Office of Acquisition and Assistance issue or revise policies
to provide more detailed procedures for writing consistent evaluations, for documenting past
performance and responsibility considerations, for helping contracting officers communicate and enforce
consistent performance evaluations, and for measuring and assessing evaluation quality.

We agree with the recommendation. M/OAA is currently in the process of revising the Policy Guide for
Assessment and Use of Contractor Performance and Integrity Information (302mbh_041013) to provide
more specific guidance to contracting staff on past performance reporting. When these revisions are
finalized they will also address the recommendations contained in the OIG report. In response to this
recommendation, we will:

    •   Clarify and supplement policy based on the information in this report.

Recommendation 3. We recommend that the Office of Acquisition and Assistance develop methods to
improve consistency among its contracting officers, including their timely review of contractor
performance evaluations and their documented use of past performance and integrity information when
selecting contractors.

M/OAA agrees with this recommendation. In response to this recommendation, we will:

    •   Provide M/OAA divisions and programming offices with accountability reports detailing
        delinquent contractor performance evaluations for which they are responsible.
    •   Include the auditing of past performance assessments in M/OAA Evaluation Division’s
        regular reviews.
    •   Maximize M/OAA use of the Agency Secure Image & Storage Tracking (ASIST)
        system, which will improve consistency by increasing access to and oversight of past
        performance assessments completed by Missions and offices.
    •   Improve access to useful reference materials and promote enrollment and completion of
        useful training courses.
    •   Publicize policy guidance related to contractor past performance assessments and use of
        past performance in evaluation and selection of contractors.

Recommendation 4. We recommend that the Office of Acquisition and Assistance test alternative and

                                                                                                      21
                                                                                              Appendix II


innovative methods to more effectively organize and communicate the office’s policy, guidance, and
resources and to better support contracting and noncontracting staff at the missions and in Washington.

M/OAA agrees with the recommendation. In response to this recommendation, we will:

    •    Organize past performance information in M/OAA websites to be more intuitive to users
         and add information as needed.
    •    Create a “COR” sub-subject in my.usaid.gov and work to create a COR mail list to
         distribute important acquisition information.
    •    Create a “Past Performance” subsubject in my.usaid.gov and encourage all applicable
         contracting and noncontracting staff to follow communications there.

Recommendation 5. We recommend that the Office of Acquisition and Assistance implement a plan to
widely distribute and monitor the training of both contracting and noncontracting staff at the missions
and in Washington on past performance issues identified in this review.

M/OAA agrees with this recommendation. In response to this recommendation, we will:

    •    Make training mandatory as part of the qualifications required for COR designation and
         fully incorporate the USAID-developed CPARS Workshop into the FAC-COR required
         courses.
    •    Ensure that certificates for all mandatory past performance training courses are uploaded
         into the Federal Acquisition Institute Training Application System (FAITAS) prior to
         assignment as CO or COR.
    •    Adapt the “CPARS Workshop” training to an online training that can be accessed by staff
         worldwide.
    •    Ensure the availability of these training courses is publicized on a regular basis.

Recommendation 6. We recommend that the Office of Acquisition and Assistance implement a strategy
with the Administrator’s assistance to increase the accountability of noncontracting staff for completing
quality performance evaluations.

M/OAA agrees with this recommendation. In response to this recommendation, we will:

     •    Request that the Administrator issue an annual notice related to past performance.
     •    Communicate regularly with Agency Assistant Administrators and Mission Directors on
          past performance compliance.

Recommendation 7. We recommend that the Office of Acquisition and Assistance issue or revise policy to
provide clear, detailed procedures for obtaining and using reliable past performance information that
helps make positive determinations of applicant responsibility when awarding assistance instruments;
and ensure consistency among its agreement officers, including their use and documentation of past
performance information, when awarding assistance instruments.

M/OAA agrees with this recommendation. In response to this recommendation, we will:

    •    Review all regulations, policies and guidance that are currently available for assistance
         awards and revise ADS Chapter 303 to better address these topics.

                                                                                                          22
                                                                                               Appendix II


    •   Maximize M/OAA use of the Agency Secure Image & Storage Tracking (ASIST)
        system, which will enable M/OAA/E to have increased access to past performance
        information to review agreement officers’ use and documentation of past performance
        information, when awarding assistance instruments.


Target Completion Date:

We will plan to complete these actions within a year following OIG’s official publication of this report.


Conclusion

The Agency has dedicated significant time and resources towards improving compliance with past
performance reporting standards and principles set by the Office of Management and Budget. Through
growing cooperation across the Agency and leadership provided by M/OAA, we have witnessed and
continue to witness significant improvement from these on-going efforts.

The OIG Review of Past Performance Evaluations for Partners provides the Agency with useful insights.
OIG’s research and recommendations expand on the Agency’s present strategy and implementing actions
and challenge the Agency to achieve greater results. We are confident that the Agency is on the right
track and that implementation of the recommendations outlined will contribute to improved results.




                                                                                                            23
                                                                                             Appendix III



USAID USERS’ COMMENTS ON THE
PAST PERFORMANCE INFORMATION
RETRIEVAL SYSTEM
  Suggestions for Improvements and Information Needs From USAID
                           PPIRS Users

   Topic                                             Comment

           Ensure performance narratives consistently support ratings. “Very good” and
           “exceptional” contractor performance ratings should follow pre-established standards and
Quality    exceed contractual requirements to the Government’s benefit.

           Ensure complete evaluation reports with substantive past performance information.

           Clearly detail ratings expectations, differentiating between contractor performance
           exceeding US Government expectations versus assessor experience with contractors,
           and past performance versus past experience.
           Provide consistent Agency guidance on how to evaluate and score past performance
           information, including consistently scoring past performance information in requests for
           proposals, selecting the universe of past performance reports to evaluate, whether to
           score narrative comments or actual past performance ratings, addressing inconsistent
           narratives and ratings, addressing contradicting past performance information, and
           comparing varying amounts of PPIRS information between bidders.
           Provide consistent Agency guidance for considering and documenting past performance
           information not in PPIRS, including documented and undocumented, first-hand contractor
           past performance knowledge.
           Provide guidance for comparing PPIRS information versus bidder-supplied information,
           including addressing information reliability.
Guidance
           Provide option to substitute nonapplicable with more relevant evaluation sub-criteria when
           evaluating proposals.

           Provide option for using past performance solicitation language tailored to the solicitation.

           Clarify past performance information requirements and availability for small businesses.

           Provide guidance on using and documenting past performance and integrity information
           for local contractors.
           Outline expectations in detailing or crediting contractors for resolving issues initially
           created by the contractor (i.e., poor initial management) or for holding contractors
           responsible for problems ultimately resolved.
           Clarify and better distribute guidelines for PPIRS access as many assessors were unable
           to obtain access or wanted access.



                                                                                                       24
                                                                                                 Appendix III


               Provide detailed past performance training, including narrative writing, and support at field
               offices.

Training       Provide past performance training to all technical staff in evaluation committees.

               Provide integrity and conflict of interest training that highlights professional relationships.

               Allow PPIRS users to sort and search for relevant past performance information for
               contractors with numerous performance reports based on sector, scope of work, terms of
               responsibility, and project complexity.
               Track the company size and the number of on-going projects for a given contractor as
               contractor resource limitations impact project performance.

               Ensure entry of consistent contractor names.

CPARS          Provide aggregate scores for elements, such as timeliness or cost control, to average out
               past performance outliers.
               Allow assessment of how contractor resolves problems or inclusion of innovative
               solutions.
               Include conclusion statement on whether the assessing official and/or assessor
               recommend the contractor for future similar projects.

               Improve method to update general contractor, COR and contracting officer information.

               Provide a centrally located database of CORs and contracting officers listing contractors
               with whom they have worked to facilitate direct past performance reference checks.

               Develop past performance indicators verifiable by USAID contractor selection team.

               Assist contracting officers in providing relevant and timely past performance information
Additional     to contractor selection team or provide technical evaluation committee with PPIRS
USAID          access.
Support        Facilitate selection team in obtaining past performance information for subcontractors
               who will be working with the contractor.

               Facilitate reference checks on individuals or teams implementing contracts.

               Facilitate selection team in vetting contractors for association with terrorists or other
               unlawful activities and organizations.

Note: Survey respondents provided the above comments. OIG did not assess the validity of or the degree
to which OAA has addressed the issues raised.




                                                                                                            25
                                                                            Appendix IV




SURVEY RESULTS
OIG administered the following survey to four cohorts: assessors, PPIRS users, assessing
officials, and those awarding assistance. Each cohort received a specific set of survey
questions. Survey results presented below are unprocessed. Respondent comments have been
removed.




                                                                                     26
USAID's Use of Past Performance and Integrity
Information


1. During October 1, 2011 through May 29, 2013, I served as a:

                                                                                                    Rating
                                         Yes                       No             Don't Know
                                                                                                    Count

   Contracting Officer (CO) and/or
          Contractor Performance
                                      30.9% (139)              68.0% (306)            1.1% (5)          450
   Assessment Reporting System
 (CPARS) Assessing Official (AO)


Contracting Officer Representative
  (COR) and/or CPARS Assessing        76.0% (447)              23.1% (136)            0.9% (5)          588
    Official Representative (AOR)


              Contractor Specialist    5.2% (21)               92.8% (372)            2.0% (8)          401


                       Focal Point    10.2% (41)               74.7% (301)         15.1% (61)           403


                                                                               answered question        651


                                                                                 skipped question            8




2. During October 1, 2011 through May 29, 2013, I was a:

                                                                                                    Rating
                                               Yes                               No
                                                                                                    Count

                 USAID direct hire         76.6% (364)                       23.4% (111)                475


     Personal Services Contractor
                                            18.0% (60)                       82.0% (274)                334
                            (PSC)


   Foreign Service National (FSN)          47.6% (219)                       52.4% (241)                460


                                                                               answered question        652


                                                                                 skipped question            7




                                                     1 of 78
3. I initially began to work for USAID in:

                                                       Response   Response
                                                        Percent    Count

                     pre-1990                             10.2%         66


                        1990                               1.4%            9


                        1991                               0.9%            6


                        1992                               1.4%            9


                        1993                               1.9%         12


                        1994                               2.8%         18


                        1995                               1.1%            7


                        1996                               1.5%         10


                        1997                               2.8%         18


                        1998                               2.3%         15


                        1999                               2.0%         13


                        2000                               4.8%         31


                        2001                               4.5%         29


                        2002                               3.4%         22


                        2003                               3.2%         21


                        2004                               5.2%         34


                        2005                               7.9%         51


                        2006                               5.4%         35


                        2007                               4.8%         31


                        2008                               7.4%         48


                        2009                              10.5%         68


                        2010                               9.3%         60


                        2011                               4.9%         32


                                             2 of 78
                       2012                                                    0.5%             3


                       2013                                                    0.0%             0


                                                                  answered question         648


                                                                    skipped question         11




4. I would describe my awareness of USAID's January 2013 Policy Guide for Assessment
and Use of Contractor Performance and Integrity Information as:

                                                                          Response     Response
                                                                            Percent     Count

                  Extensive                                                   12.8%          84


                  Moderate                                                    49.0%         322


                      Slight                                                  26.2%         172


                 Nonexistent                                                  12.0%          79


                                                                  answered question         657


                                                                    skipped question            2




5. During October 1, 2011 through May 29, 2013, I was responsible for evaluating the
contractor and recording their performance in CPARS.

                                                                          Response     Response
                                                                            Percent     Count


                        Yes                                                   66.2%         436


                         No                                                   33.8%         223


                                                                  answered question         659


                                                                    skipped question            0




                                           3 of 78
6. Indicate the frequency with which the following events occured based on your overall
experiences at all posts for contracts with performance evaluations due between October
1, 2011 and May 29, 2013.

                                                                                                           Rating
                                       Always      Frequently     Occasionally    Rarely        Never
                                                                                                           Count

     I evaluated contractors and
    recorded their performance in    53.8% (234)   19.1% (83)      14.5% (63)    6.2% (27)    6.4% (28)        435
          CPARS when required.


           I maintained files and
 communications documenting or       57.9% (248)   25.0% (107)     8.9% (38)     3.7% (16)    4.4% (19)        428
       supporting my evaluation.


 I recorded my past performance
  evaluations in CPARS within 30     26.4% (111)   24.9% (105)     21.1% (89)    16.2% (68)   11.4% (48)       421
        days of the rating period.


                                                                                      answered question        439


                                                                                       skipped question        220




7. Past performance guidance from USAID’s Office of Acquisitions and Assistance (OAA)
was:

                                      Strongly                                   Strongly       Can't      Rating
                                                      Agree        Disagree
                                       Agree                                     Disagree      Judge       Count

                            Clear     9.9% (42)    56.0% (238)     20.2% (86)    3.5% (15)    10.4% (44)       425


                       Up-to-date     9.1% (38)    50.0% (209)     17.5% (73)    3.3% (14)    20.1% (84)       418


                      Consistent      9.1% (38)    51.7% (216)     18.7% (78)    3.6% (15)    17.0% (71)       418


           Widely communicated        9.5% (40)    40.0% (168)    24.8% (104)    6.4% (27)    19.3% (81)       420


                                                                                      answered question        428


                                                                                       skipped question        231




                                                        4 of 78
8. My AO, CO, contract specialist, or focal point:

                                        Strongly                                 Strongly       Can't      Rating
                                                       Agree        Disagree
                                         Agree                                   Disagree      Judge       Count

  Emphasized the need to conduct
            contractor performance     32.0% (136)   47.5% (202)    8.5% (36)    4.7% (20)    7.3% (31)        425
                       evaluations.


         Reviewed and/or provided
    comments on my performance         27.4% (116)   36.2% (153)   15.6% (66)    5.2% (22)   15.6% (66)        423
                       evaluations.


Knew enough about the contractor's
      performance to appropriately
                                       16.0% (67)    34.8% (146)   20.0% (84)    5.5% (23)   23.8% (100)       420
      comment or make significant
       changes to my evaluations.


           Edited my performance
                                       11.7% (49)    34.5% (145)   24.0% (101)   5.7% (24)   24.0% (101)       420
                       evaluations.


       Asked for my comments on
         significant changes to my     13.8% (58)    33.9% (142)   22.9% (96)    6.4% (27)   22.9% (96)        419
         performance evaluations.


Ensured that I complete all required
                                       25.9% (109)   37.3% (157)   14.0% (59)    5.5% (23)   17.3% (73)        421
                  fields in CPARS.


        Considered conducting and
      documenting a complete and
                                       26.6% (111)   36.4% (152)   13.9% (58)    4.5% (19)   18.7% (78)        418
accurate performance evaluation in
       CPARS to be a high priority.


                                                                                      answered question        425


                                                                                       skipped question        234




                                                         5 of 78
9. To what extent do you agree that:

                                       Strongly                                  Strongly        Can't      Rating
                                                      Agree        Disagree
                                         Agree                                   Disagree       Judge       Count

 CPARS’s automatic reminders of
  due dates were effective in my
                                       23.3% (98)   39.0% (164)   20.9% (88)     8.3% (35)     8.6% (36)        421
          completing performance
              evaluations on time.


  Due to staff limitations, I had to
act as both the AOR/COR and the
                                       3.1% (13)     6.1% (26)    39.2% (166)   39.5% (167)   12.1% (51)        423
 AO/CO/contract specialist for the
                    same contract.


                                                                                      answered question         426


                                                                                       skipped question         233




10. Expectations for conducting contractor performance evaluations:

                                       Strongly                                  Strongly        Can't      Rating
                                                      Agree        Disagree
                                         Agree                                   Disagree       Judge       Count

Varied by mission/program office.      10.2% (43)   31.4% (132)   13.8% (58)     3.3% (14)    41.3% (174)       421


Varied by supervisor/CO/contract
                                       9.2% (39)    36.7% (155)   18.7% (79)     4.7% (20)    30.6% (129)       422
                         specialist.


     Were consistent with Federal
     Acquisition Regulation (FAR)      17.1% (73)   46.2% (197)    4.9% (21)     0.7% (3)     31.0% (132)       426
                     requirements.


                                                                                      answered question         426


                                                                                       skipped question         233




                                                        6 of 78
11. In my opinion, conducting contractor performance evaluations is effective in:

                                       Strongly                                   Strongly          Can't     Rating
                                                        Agree        Disagree
                                        Agree                                     Disagree         Judge      Count

           Promoting performance
 conversations with contractors for   25.0% (106)    50.0% (212)     14.2% (60)   4.5% (19)       6.4% (27)       424
           improved performance.


Protecting government investments
                                      33.2% (141)    49.4% (210)     8.9% (38)    2.6% (11)       5.9% (25)       425
                      and projects.


Ensuring USAID does business with
                                      31.6% (135)    44.7% (191)     12.4% (53)   4.7% (20)       6.6% (28)       427
     the best possible contractors.


                                                                                       answered question          428


                                                                                        skipped question          231




12. I received:

                                                                                                              Rating
                                                     Yes                                No
                                                                                                              Count

    Formal training (earning CPEs)
         related to conducting past               26.0% (109)                       74.0% (310)                   419
         performance evaluations.


  Formal past performance training
       prior to my conducting past                30.6% (129)                       69.4% (293)                   422
         performance evaluations.


                                                                                       answered question          423


                                                                                        skipped question          236




                                                           7 of 78
13. Training on conducting contractor past performance evaluations:

                                       Strongly                              Strongly       Not       Rating
                                                     Agree       Disagree
                                        Agree                                Disagree    Applicable   Count

          Identified how to present
                                       7.8% (32)   29.0% (119)   6.8% (28)   0.5% (2)   56.0% (230)       411
     information to make it useful.


  Provided examples of strong and
                                       7.5% (31)   27.5% (113)   8.0% (33)   0.5% (2)   56.4% (232)       411
weak narratives and best practices.


  Recommended things to avoid or
       minimize when documenting       7.1% (29)   28.0% (115)   8.0% (33)   0.7% (3)   56.1% (230)       410
         performance evaluations.


   Informed me of the assessment
                                       7.3% (30)   30.3% (125)   6.1% (25)   0.5% (2)   55.8% (230)       412
                 process timelines.


     Informed me of key roles and
                                       7.1% (29)   31.5% (129)   5.1% (21)   0.7% (3)   55.5% (227)       409
                   responsibilities.


     Informed me of the reportable
                                       7.1% (29)   25.9% (106)   9.0% (37)   0.7% (3)   57.3% (235)       410
         conditions and thresholds.


      Informed me of performance
                                       7.3% (30)   31.5% (129)   4.6% (19)   0.7% (3)   55.7% (228)       409
          evaluation requirements.


        Influenced how I document
                                       6.6% (27)   25.7% (105)   9.8% (40)   1.5% (6)   56.4% (230)       408
           contractor performance.


                                                                                 answered question        413


                                                                                   skipped question       246




                                                       8 of 78
14. Please indicate your level of agreement with the following statements based on your
overall experiences at all posts from October 1, 2011 to May 29, 2013.

                                        Strongly                                 Strongly       Can't      Rating
                                                       Agree        Disagree
                                          Agree                                  Disagree      Judge       Count

 CPARS was organized in a manner
that allowed me to provide the most     8.7% (37)    58.9% (249)   20.1% (85)    3.8% (16)    8.5% (36)        423
               relevant information.


      I believed that my contractor
    performance evaluations would       9.9% (42)    57.9% (246)   13.4% (57)    3.3% (14)    15.5% (66)       425
influence source selection officials.


        I documented performance
   evaluation comments throughout       10.6% (44)   54.9% (229)   22.3% (93)     2.2% (9)    10.1% (42)       417
                   the rating period.


        Preparing and documenting
contractor performance evaluations
                                        9.7% (41)    37.5% (159)   42.7% (181)   2.4% (10)    7.8% (33)        424
           was time-consuming and
                       burdensome.


  Given more urgent priorities, I did
  not have time to conduct CPARS        6.7% (28)    20.4% (86)    46.8% (197)   17.1% (72)   9.0% (38)        421
          performance evaluations.


                                                                                      answered question        426


                                                                                        skipped question       233




15. Evaluation questions in CPARS:

                                        Strongly                                 Strongly       Can't      Rating
                                                       Agree        Disagree
                                          Agree                                  Disagree      Judge       Count

                         Were clear.    10.3% (44)   64.6% (275)   15.3% (65)     1.9% (8)    8.0% (34)        426


       Addressed important issues.      10.1% (43)   68.9% (292)    9.7% (41)     1.4% (6)    9.9% (42)        424


 Met all USAID-specific information
                                        7.3% (31)    48.8% (206)   19.7% (83)     1.7% (7)    22.5% (95)       422
                              needs.


                                                                                      answered question        427


                                                                                        skipped question       232




                                                         9 of 78
16. Performing and recording contractor performance evaluations took approximately
(round up or down as necessary):

                                                                       Response    Response
                                                                        Percent     Count

           Less than 30 minutes                                            1.2%             4


                 30 - 59 minutes                                           9.8%          33


                    1 - 2 hours                                           25.9%          87


                     3 - 4 hours                                          15.8%          53


                     5 - 7 hours                                          13.4%          45


  1 - 2 days (8 hour imcrements)                                          17.3%          58


                      3 - 4 days                                           5.1%          17


  1 - 2 weeks (5 day increments)                                           6.5%          22


                    3 - 4 weeks                                            5.1%          17


                                                               answered question        336


                                                                skipped question        323




                                        10 of 78
17. Please answer the following questions based on your overall experiences at all posts
from October 1, 2011 to May 29, 2013.

                                      Strongly                                 Strongly        Can't      Rating
                                                    Agree        Disagree
                                       Agree                                   Disagree       Judge       Count

   Limited knowledge of contractor
  performance adversely affected      2.6% (11)   18.9% (79)    46.4% (194)   23.2% (97)     8.9% (37)        418
 my meeting evaluation deadlines.


            Mission/program office
reassignments affected the quality
                                      7.2% (30)   22.5% (94)    33.7% (141)   16.5% (69)    20.1% (84)        418
     of my contractor performance
                      evaluations.


           The uncomfortable work
  environment that can result from
                                      5.5% (23)   21.4% (89)    41.0% (170)   14.0% (58)    18.1% (75)        415
       negative feedback hampers
balanced performance evaluations.


       The time it takes to address
contractors contesting performance
                                      5.5% (23)   20.7% (86)    40.0% (166)    7.7% (32)    26.0% (108)       415
         reports hampers balanced
         performance evaluations.


      COs and contract specialists
   should conduct the performance     5.8% (24)   16.1% (67)    42.2% (176)   25.4% (106)   10.6% (44)        417
                      evaluations.


                                                                                    answered question         420


                                                                                     skipped question         239




                                                     11 of 78
18. How often did you:

                                                                                                              Rating
                                      Frequently       Occasionally             Rarely           Never
                                                                                                              Count

  Leave a mission/program office
 without finishing an evaluation on    2.7% (11)        12.3% (50)          14.0% (57)         70.9% (288)        406
    the contractor's performance.


       Provide evaluations on the
 performance of a contractor you       3.7% (15)        12.0% (49)          15.0% (61)         69.3% (282)        407
            were not familiar with.


       Provide an evaluation on a
  contractor's performance before
   the deadline after learning of a    4.3% (17)         9.0% (36)          10.3% (41)         76.4% (305)        399
          reassignment to another
          mission/program office.


                                                                                         answered question        410


                                                                                          skipped question        249




19. Performance evaluations have limited usefulness because:

                                      Strongly                                     Strongly        Can't      Rating
                                                     Agree           Disagree
                                       Agree                                       Disagree        Judge      Count

  USAID repeatedly awards to the
                                      8.4% (35)    32.1% (134)   30.7% (128)       7.4% (31)     21.3% (89)       417
         same set of contractors.


        USAID continues to award
        contractors with poor past    6.5% (27)    18.3% (76)    32.5% (135)       8.2% (34)    34.5% (143)       415
            performance records.


A contract’s COR may not be the
Assessing Official Representative
                                      3.9% (16)    16.7% (69)    27.1% (112)       9.4% (39)    42.9% (177)       413
      (AOR) entering performance
         evaluations into CPARS.


                                                                                         answered question        417


                                                                                          skipped question        242




                                                      12 of 78
20. How important is completing contractor performance evaluations compared to your
other responsibilities?

                                                                                          Response    Response
                                                                                           Percent     Count

                 Very Important                                                               25.1%        104


                     Important                                                                40.0%        166


           Somewhat Important                                                                 26.5%        110


                  Not Important                                                                8.4%         35


                                                                                  answered question        415


                                                                                   skipped question        244




21. How important are the following factors in motivating you to complete performance
evaluations:

                                                                    Somewhat                           Rating
                                    Very Important     Important                      Not Important
                                                                    Important                          Count

         Recognition/incentives       8.5% (35)        22.0% (90)   17.1% (70)         52.4% (215)         410


        Statutory requirements       44.7% (187)      44.5% (186)    9.1% (38)           1.7% (7)          418


      Directive from immediate
                                     26.3% (109)      50.1% (208)   16.1% (67)          7.5% (31)          415
      management/supervisors


       Senior leadership priority    28.5% (117)      46.5% (191)   16.1% (66)          9.0% (37)          411


            Contractor requests       12.0% (50)      40.5% (168)   30.6% (127)         16.9% (70)         415


        Performance appraisals        18.3% (75)      41.2% (169)   19.8% (81)          20.7% (85)         410


                                                                                  answered question        418


                                                                                   skipped question        241




                                                     13 of 78
22. In your opinion, what are the barriers to conducting performance evaluations on time?

                                                                                       Response
                                                                                        Count

                                                                                            291


                                                                  answered question         291


                                                                    skipped question        368




23. During the source selection process (procuring a contract) for contracts awarded
during October 1, 2011 through May 29, 2013, did you serve as either: A contracting officer
(CO) or contract specialist OR A contracting officer representative (COR), the cognizant
technical officer (CTO), or a member of the technical evaluation committee (TEC) who
considered past performance information and provided a recommendation to the selecting
official?

                                                                          Response     Response
                                                                            Percent     Count


                       Yes                                                    69.8%         451


                       No                                                     30.2%         195


                                                                  answered question         646


                                                                    skipped question         13




                                          14 of 78
24. Specifically, which role did you play during the source selection process (procuring a
contract) for contracts awarded during October 1, 2011 through May 29, 2013 (select all
that apply)?

                                                                               Response   Response
                                                                                Percent    Count

Contracting officer (CO) or contract
                                                                                  24.4%        110
                          specialist


               Contracting officer
 representative (COR), cognizant
      technical officer (CTO), or a
         member of the technical
 evaluation committee (TEC) who                                                   77.4%        349
    considered past performance
      information and provided a
recommendation to the selecting
                            official


                                                                   answered question           451


                                                                     skipped question          208




25. When selecting a contractor:

                                                                                           Rating
                                          Yes                        No
                                                                                           Count

          I always documented my
 consideration of past performance     96.4% (424)                3.6% (16)                    440
         information when required.


I always documented my review of
available integrity information when   89.7% (385)                10.3% (44)                   429
                           required.


                                                                    answered question          446


                                                                     skipped question          213




                                                15 of 78
26. To what extent do you agree that:

                                         Strongly                               Strongly       Can't      Rating
                                                        Agree       Disagree
                                          Agree                                 Disagree      Judge       Count

    I knew when I was supposed to
    consider past performance and
                                        43.6% (196)   47.3% (213)   6.0% (27)   0.7% (3)     2.4% (11)        450
 integrity information during source
                          selection.


                                                                                     answered question        450


                                                                                      skipped question        209




27. My CO, contract specialist, or supervisor ensured that:

                                         Strongly                               Strongly       Can't      Rating
                                                        Agree       Disagree
                                          Agree                                 Disagree      Judge       Count

 A responsibility determination was
                                        30.5% (135)   37.7% (167)   4.3% (19)   0.2% (1)    27.3% (121)       443
       included in the contract file.


 The source selection rationale was
                                        36.6% (163)   50.1% (223)   2.2% (10)   0.2% (1)    10.8% (48)        445
                          adequate.


Past performance consideration did
or did not need to be included as a     28.0% (123)   41.8% (184)   8.0% (35)   5.0% (22)   17.3% (76)        440
           source selection factor.


                                                                                     answered question        446


                                                                                      skipped question        213




                                                         16 of 78
28. My CO, contract specialist, or supervisor:

                                       Strongly                                 Strongly       Can't      Rating
                                                      Agree        Disagree
                                        Agree                                   Disagree      Judge       Count

        Reviewed and/or provided
comments on the adequacy of my        37.0% (164)   47.2% (209)    3.2% (14)    0.7% (3)    12.0% (53)        443
        source selection rationale.


Always included past performance
       as a selection factor in my    42.1% (187)   45.7% (203)    3.2% (14)    0.5% (2)     8.6% (38)        444
          solicitations and awards.


Considered past performance and
 integrity information as important   33.9% (150)   50.6% (224)    3.6% (16)    0.7% (3)    11.3% (50)        443
       factors in source selection.


                                                                                     answered question        445


                                                                                      skipped question        214




29. Expectations for considering past performance information in source selection:

                                       Strongly                                 Strongly       Can't      Rating
                                                      Agree        Disagree
                                        Agree                                   Disagree      Judge       Count

Varied by mission/program office.      7.6% (33)    23.9% (104)   20.9% (91)    4.4% (19)   43.2% (188)       435


 Varied by supervisor/CO/contract
                                       8.3% (36)    29.0% (126)   26.4% (115)   5.1% (22)   31.3% (136)       435
                        specialist.


        Is consistent with Federal
     Acquisition Regulation (FAR)     25.4% (113)   46.1% (205)    1.3% (6)     0.7% (3)    26.5% (118)       445
                     requirements.


                                                                                     answered question        447


                                                                                      skipped question        212




                                                       17 of 78
30. I received:

                                                                                                                 Rating
                                                       Yes                                No
                                                                                                                 Count

    Formal training (earning CPEs)
         related to the use of past
                                                    25.6% (113)                       74.4% (328)                    441
          performance or integrity
                information (PPII).


   Formal PPII training prior to my
                                                    26.7% (117)                       73.3% (322)                    439
making source selection decisions.


                                                                                        answered question            443


                                                                                          skipped question           216




31. Training addressed how one should:

                                       Strongly                                     Strongly           Not       Rating
                                                          Agree         Disagree
                                         Agree                                      Disagree        Applicable   Count

       Consider past performance
      information when selecting a     10.8% (47)      27.2% (118)      2.1% (9)    1.2% (5)    58.8% (255)          434
                            source.


      Document past performance
      considerations in the source     10.2% (44)      27.6% (119)      2.3% (10)   0.9% (4)    58.9% (254)          431
                selection rationale.


                                                                                        answered question            435


                                                                                          skipped question           224




                                                             18 of 78
32. Training affected:

                                     Strongly                              Strongly       Not       Rating
                                                   Agree       Disagree
                                      Agree                                Disagree    Applicable   Count

    How I used past performance
                                     6.9% (30)   25.3% (110)   4.1% (18)   0.9% (4)   62.8% (273)       435
                     information.


  How I prepared source selection
                                     6.7% (29)   25.1% (108)   3.7% (16)   0.9% (4)   63.6% (274)       431
                       rationales.


                                                                               answered question        435


                                                                                 skipped question       224




                                                    19 of 78
33. Past performance information in PPIRS:

                                       Strongly                               Strongly       Can't      Rating
                                                     Agree       Disagree
                                        Agree                                 Disagree      Judge       Count

                  Was easy to use.     2.8% (12)   37.3% (162)   13.4% (58)   3.9% (17)   42.6% (185)       434


            Was consistently clear.    1.9% (8)    31.0% (134)   19.9% (86)   3.2% (14)   44.0% (190)       432


                Defined acronyms.      2.1% (9)    36.8% (159)   10.2% (44)   1.4% (6)    49.5% (214)       432


  Had understandable terminology.      1.9% (8)    43.9% (189)   10.0% (43)   1.4% (6)    42.9% (185)       431


              Was comprehensive.       1.4% (6)    33.5% (144)   17.7% (76)   2.6% (11)   44.9% (193)       430


 Was well organized and formatted.     1.4% (6)    37.4% (162)   15.0% (65)   3.5% (15)   42.7% (185)       433


  Was well supported by examples.      0.9% (4)    28.2% (122)   20.1% (87)   3.2% (14)   47.5% (205)       432


   Provided enough detail to justify
                                       1.2% (5)    36.9% (159)   15.8% (68)   3.0% (13)   43.2% (186)       431
the contractor's performance rating.


  Provided information relevant for
                                       1.6% (7)    40.5% (174)   12.8% (55)   1.9% (8)    43.3% (186)       430
               my project or needs.


 Provided enough detail to allow me
 to make informed decisions during     1.9% (8)    40.1% (173)   13.2% (57)   1.9% (8)    42.9% (185)       431
                  source selection.


    Influenced my source selection
                                       3.0% (13)   42.0% (180)   10.0% (43)   1.6% (7)    43.4% (186)       429
                           decision.


       Accurately reflected partner
                                       1.4% (6)    32.7% (141)   12.1% (52)   2.3% (10)   51.5% (222)       431
                      performance.


                     Was valuable.     3.7% (16)   40.7% (176)   9.5% (41)    3.2% (14)   42.8% (185)       432


                                                                                   answered question        434


                                                                                    skipped question        225




                                                      20 of 78
34. Integrity information in FAPIIS:

                                   Strongly                             Strongly      Can't       Rating
                                                Agree       Disagree
                                    Agree                               Disagree     Judge        Count

              Was easy to use.     2.1% (9)   21.8% (94)    7.2% (31)   1.2% (5)   67.8% (293)        432


         Was consistently clear.   2.1% (9)   20.4% (88)    7.7% (33)   0.9% (4)   68.9% (297)        431


  Influenced my source selection
                                   1.6% (7)   21.8% (94)    5.8% (25)   0.7% (3)   70.1% (302)        431
                       decision.


                                                                            answered question         434


                                                                              skipped question        225




35. What other information would be beneficial to source selection?

                                                                                                 Response
                                                                                                  Count

                                                                                                       85


                                                                            answered question          85


                                                                             skipped question         574




                                                 21 of 78
36. Considering and documenting past performance information during source selection
took approximately (round up or down as necessary):

                                                                       Response    Response
                                                                        Percent     Count

           Less than 30 minutes                                            3.2%          10


                 30 - 59 minutes                                           9.9%          31


                    1 - 2 hours                                           21.7%          68


                     3 - 4 hours                                          20.1%          63


                     5 - 7 hours                                          10.2%          32


  1 - 2 days (8 hour imcrements)                                          16.0%          50


                      3 - 4 days                                           9.6%          30


               More than 1 week                                            9.3%          29


                                                               answered question        313


                                                                skipped question        346




                                        22 of 78
37. To what extent do you agree that:

                                        Strongly                                 Strongly       Can't      Rating
                                                       Agree        Disagree
                                          Agree                                  Disagree      Judge       Count

            Locating or finding past
performance information for source      19.0% (82)   51.2% (221)   11.1% (48)    0.5% (2)    18.3% (79)        432
  selection can be time consuming.


 Documenting my consideration of
   past performance information in
                                        15.1% (65)   50.6% (218)   21.8% (94)    0.5% (2)    12.1% (52)        431
  my source selection can be time
                        consuming.


       Given more urgent priorities,
  sometimes I do not have time to
                                        4.4% (19)    21.0% (90)    53.4% (229)   8.6% (37)   12.6% (54)        429
           thoroughly consider past
          performance information.


Documenting past performance and
  integrity considerations may be a
                                        10.7% (46)   27.3% (117)   36.9% (158)   6.5% (28)   18.5% (79)        428
 more appropriate responsibility for
             the contracting office.


      Performance evaluations are
     unreliable because the COR’s
     relationship with the contractor   5.6% (24)    17.8% (76)    46.6% (199)   9.6% (41)   20.4% (87)        427
            inaccurately biases the
           performance evaluation.


   I am aware of USAID contracts
         that have been awarded to
                                        5.8% (25)    17.8% (77)    26.9% (116)   6.0% (26)   43.5% (188)       432
         contractors with poor past
              performance records.


                                                                                      answered question        434


                                                                                       skipped question        225




                                                        23 of 78
38. Past performance information in PPIRS sometimes is not considered in source
selection because:

                                      Strongly                                Strongly        Can't       Rating
                                                    Agree        Disagree
                                       Agree                                  Disagree       Judge        Count

 The procurement team has first-
   hand knowledge of the bidder’s     3.0% (13)   21.6% (93)    30.0% (129)   6.3% (27)    39.1% (168)        430
                             work.


   The priority in quickly awarding
          contracts outweighs the
                                      2.1% (9)    13.4% (57)    37.2% (158)   13.6% (58)   33.6% (143)        425
    administrative requirement of
   considering past performance.


                                                                                   answered question          430


                                                                                     skipped question         229




39. Please provide any comments you may have as a user of past performance and
integrity information during source selection.

                                                                                                         Response
                                                                                                          Count

                                                                                                               87


                                                                                   answered question           87


                                                                                    skipped question          572




40. During October 1, 2011 through May 29, 2013, I served as a contracting officer (CO), a
contract specialist, or a CPARS assessing official (AO).

                                                                                           Response      Response
                                                                                             Percent      Count

                              Yes                                                               28.1%         179


                               No                                                               71.9%         458


                                                                                   answered question          637


                                                                                    skipped question           22




                                                     24 of 78
41. How frequently did the following occur:

                                                                                                            Rating
                                         Always      Frequently    Occasionally    Rarely        Never
                                                                                                            Count

Focal points registered contracts in
       CPARS within 30 days after       16.9% (30)   38.8% (69)     22.5% (40)    15.7% (28)   6.2% (11)        178
                     contract award.


          AORs completed CPARS
  evaluations within 30 days of the
                                        8.6% (15)    25.7% (45)     35.4% (62)    23.4% (41)   6.9% (12)        175
  end of the annual rating period, or
            the end of the contract.


     AOs validated CPARS reports
                                        14.0% (24)   42.7% (73)     24.0% (41)    12.3% (21)   7.0% (12)        171
within 30 days of report completion.


   Contractors commented on their
performance reports within 30 days      14.2% (24)   42.6% (72)     26.6% (45)    8.3% (14)    8.3% (14)        169
                          of receipt.


AOs finalized CPARs reports within
 30 days after receiving contractor
                                        17.6% (30)   38.8% (66)     22.4% (38)    14.1% (24)   7.1% (12)        170
  input or after contractor input was
                                due.


During disputes, reviewing officials
 (RO) made final determinations on      16.8% (27)   28.0% (45)     21.7% (35)    14.3% (23)   19.3% (31)       161
      report content within 30 days.


                                                                                       answered question        181


                                                                                        skipped question        478




                                                        25 of 78
42. Past performance guidance from USAID’s Office of Acquisitions and Assistance (OAA)
was:

                                         Strongly                                Strongly      Can't      Rating
                                                        Agree       Disagree
                                           Agree                                 Disagree      Judge      Count

                                Clear    13.3% (24)   57.2% (103)   16.7% (30)   4.4% (8)    8.3% (15)        180


                          Up-to-date     12.4% (22)   52.8% (94)    15.2% (27)   3.4% (6)    16.3% (29)       178


                          Consistent     11.4% (20)   52.8% (93)    16.5% (29)   3.4% (6)    15.9% (28)       176


              Widely communicated        12.4% (22)   52.5% (93)    15.8% (28)   5.6% (10)   13.6% (24)       177


                                                                                      answered question       180


                                                                                       skipped question       479




43. OAA provided clear guidance on:

                                         Strongly                                Strongly      Can't      Rating
                                                        Agree       Disagree
                                           Agree                                 Disagree      Judge      Count

 When to include past performance
as a selection factor in solicitations   19.0% (34)   55.9% (100)   10.1% (18)   1.1% (2)    14.0% (25)       179
                         and awards.


         Sufficiently recording PPII
    consideration and decisions for      12.4% (22)   48.3% (86)    20.2% (36)   1.7% (3)    17.4% (31)       178
                           contracts.


     Obtaining and considering past
       performance information for       13.1% (23)   46.3% (81)    18.3% (32)   1.1% (2)    21.1% (37)       175
assistance agreements and grants.


                                                                                      answered question       179


                                                                                       skipped question       480




                                                         26 of 78
44. OAA provided clear guidance on how I can:

                                        Strongly                                Strongly      Can't      Rating
                                                       Agree       Disagree
                                          Agree                                 Disagree      Judge      Count

  Ensure adequate consideration of
past performance information when       14.9% (27)   52.5% (95)    16.0% (29)   1.7% (3)    14.9% (27)       181
               selecting contracts.


  Ensure adequate use of integrity
        information when selecting      14.9% (27)   50.3% (91)    17.1% (31)   1.1% (2)    16.6% (30)       181
                          contracts.


     Provide adequate oversight in
          completing performance        11.7% (21)   49.4% (89)    21.7% (39)   1.1% (2)    16.1% (29)       180
                       evaluations.


       Ensure timely completion of
                                        12.3% (22)   50.8% (91)    21.2% (38)   1.7% (3)    14.0% (25)       179
         performance evaluations.


Guide AORs/CORs to prepare more
          informative performance       12.4% (22)   44.1% (78)    23.7% (42)   4.5% (8)    15.3% (27)       177
                       evaluations.


                                                                                     answered question       182


                                                                                      skipped question       477




45. To what extent do you agree that:

                                        Strongly                                Strongly      Can't      Rating
                                                       Agree       Disagree
                                          Agree                                 Disagree      Judge      Count

            I had the ability to hold
      CORs/AORs accountable for
                                        6.8% (12)    40.7% (72)    18.6% (33)   8.5% (15)   25.4% (45)       177
          completing performance
                       evaluations.


                                                                                     answered question       177


                                                                                      skipped question       482




                                                        27 of 78
46. All of my staff, CORs, and AORs received:

                                        Strongly                               Strongly       Can't      Rating
                                                      Agree       Disagree
                                         Agree                                 Disagree      Judge       Count

     Formal training (earning CPEs)
          related to conducting past    7.6% (13)   17.0% (29)    35.1% (60)   12.9% (22)   27.5% (47)       171
          performance evaluations.


Formal training related to the use of
     past performance and integrity
                                        4.1% (7)    22.4% (38)    34.1% (58)   12.9% (22)   26.5% (45)       170
        information (PPII) in source
                           selection.


  Formal past performance training
    prior to being granted access to    5.9% (10)   25.3% (43)    32.9% (56)   11.8% (20)   24.1% (41)       170
                            CPARS.


                                                                                    answered question        172


                                                                                      skipped question       487




                                                       28 of 78
47. Information entered in CPARS by AORs consistently:

                                        Strongly                              Strongly      Can't      Rating
                                                     Agree       Disagree
                                         Agree                                Disagree      Judge      Count

                         Was clear.     2.4% (4)   43.2% (73)    25.4% (43)   3.6% (6)    25.4% (43)       169


                Defined acronyms.       2.4% (4)   40.8% (69)    27.2% (46)   3.0% (5)    26.6% (45)       169


  Had understandable terminology.       2.4% (4)   48.5% (82)    20.1% (34)   3.0% (5)    26.0% (44)       169


              Was comprehensive.        1.8% (3)   39.3% (66)    28.6% (48)   4.2% (7)    26.2% (44)       168


  Was well supported by examples.       2.4% (4)   34.9% (59)    30.8% (52)   5.3% (9)    26.6% (45)       169


   Provided enough detail to justify
                                        2.4% (4)   44.0% (74)    21.4% (36)   6.0% (10)   26.2% (44)       168
the contractor's performance rating.


   Provided information relevant to
                                        2.4% (4)   53.6% (90)    16.1% (27)   1.2% (2)    26.8% (45)       168
       the project or USAID needs.


     Provided enough detail to allow
 source selection officials to make     3.0% (5)   42.6% (72)    24.9% (42)   1.8% (3)    27.8% (47)       169
                informed decisions.


 Influenced the decisions of source
                                        3.6% (6)   41.7% (70)    15.5% (26)   0.6% (1)    38.7% (65)       168
                 selection officials.


       Accurately reflected partner
                                        3.0% (5)   47.6% (79)    16.9% (28)   1.8% (3)    30.7% (51)       166
                      performance.


                     Was valuable.      4.1% (7)   51.5% (87)    16.0% (27)   1.2% (2)    27.2% (46)       169


                                                                                   answered question       170


                                                                                    skipped question       489




                                                      29 of 78
48. Integrity information entered in FAPIIS consistently:

                                    Strongly                                Strongly      Can't      Rating
                                                   Agree       Disagree
                                      Agree                                 Disagree     Judge       Count

             Was written clearly.    3.1% (5)    35.4% (57)    11.2% (18)   0.6% (1)    49.7% (80)       161


      Influenced source selection
                                     3.1% (5)    34.6% (56)    6.8% (11)    0.6% (1)    54.9% (89)       162
                       decisions.


                                                                                answered question        163


                                                                                  skipped question       496




49. Reassignments of AORs/CORs affected my ability to ensure:

                                    Strongly                                Strongly      Can't      Rating
                                                   Agree       Disagree
                                      Agree                                 Disagree     Judge       Count

    The timely completion of past
                                    16.8% (28)   40.1% (67)    15.6% (26)   0.0% (0)    27.5% (46)       167
        performance evaluations.


  The quality of past performance
                                    16.8% (28)   40.1% (67)    13.2% (22)   0.6% (1)    29.3% (49)       167
                     evaluations.


                                                                                answered question        167


                                                                                  skipped question       492




                                                    30 of 78
50. To what extent do you agree that:

                                        Strongly                               Strongly       Can't      Rating
                                                      Agree       Disagree
                                         Agree                                 Disagree      Judge       Count

My own reassignment affected my
     ability to provide performance     9.0% (15)   28.9% (48)    30.7% (51)    3.6% (6)    27.7% (46)       166
              evaluation oversight.


   Due to staff limitations, I had to
   act as both the AO/CO/contract
                                        3.0% (5)    17.5% (29)    43.4% (72)   17.5% (29)   18.7% (31)       166
   specialist and the AOR/COR for
                 the same contract.


     Contractors are more likely to
contest CPARS reports when there        3.6% (6)    22.9% (38)    30.7% (51)   8.4% (14)    34.3% (57)       166
                      is more detail.


       The time it takes to address
contractors contesting performance
                                        6.6% (11)   26.5% (44)    26.5% (44)    5.4% (9)    34.9% (58)       166
         reports hampers balanced
          performance evaluations.


AORs/CORs do not respond to my
   e-mails or phone calls regarding     4.8% (8)    20.0% (33)    37.0% (61)   6.7% (11)    31.5% (52)       165
          performance evaluations.


                                                                                    answered question        167


                                                                                      skipped question       492




                                                       31 of 78
51. Past performance information sometimes is not considered in source selection
because:

                                     Strongly                              Strongly       Can't       Rating
                                                  Agree       Disagree
                                      Agree                                Disagree      Judge        Count

 The procurement team has first-
  hand knowledge of the bidder’s     2.4% (4)   21.7% (36)    36.7% (61)   12.7% (21)   26.5% (44)        166
                            work.


  The priority in quickly awarding
         contracts outweighs the
                                     1.2% (2)   15.8% (26)    44.8% (74)   13.3% (22)   24.8% (41)        165
    administrative requirement of
   considering past performance.


                                                                                answered question         166


                                                                                  skipped question        493




52. In your opinion, what are the barriers to conducting performance evaluations on time?

                                                                                                     Response
                                                                                                      Count

                                                                                                           51


                                                                                answered question          51


                                                                                 skipped question         608




53. During the period from October 1, 2011 through May 29, 2013, did you select USAID
grant recipients and/or signed cooperative agreements?

                                                                                        Response     Response
                                                                                         Percent      Count

                             Yes                                                            27.5%         175


                              No                                                            72.5%         461


                                                                                answered question         636


                                                                                 skipped question          23




                                                   32 of 78
54. Please indicate your level of agreement with the following statements based on your
overall experiences at all posts from October 1, 2011 to May 29, 2013. Note: Assistance
refers to grants or cooperative agreements.

                                        Strongly                                Strongly       Can't      Rating
                                                       Agree       Disagree
                                          Agree                                 Disagree      Judge       Count

     I was required to consider past
     performance information when       27.3% (48)   59.1% (104)   9.1% (16)     2.3% (4)     2.3% (4)        176
selecting a recipient for assistance.


       I obtained past performance
       information when selecting a     21.1% (37)   64.0% (112)   9.7% (17)     2.3% (4)     2.9% (5)        175
           recipient for assistance.


  It would be useful to have a past
         performance database for       47.5% (84)   40.1% (71)     5.1% (9)     2.8% (5)     4.5% (8)        177
              assistance recipients.


  I was able to access reliable past
     performance information when       5.7% (10)    48.9% (86)    31.3% (55)    4.5% (8)    9.7% (17)        176
               awarding assistance.


     Past performance information
          would be useful in making     45.5% (80)   48.9% (86)     2.3% (4)     0.6% (1)     2.8% (5)        176
       assistance award decisions.


 USAID provided clear guidance on
            how to incorporate past
                                        12.5% (22)   46.0% (81)    22.7% (40)   10.2% (18)   8.5% (15)        176
      performance information into
   source selection for assistance.


     To streamline workload, I have
      seen others award assistance      13.2% (23)   23.6% (41)    31.6% (55)   5.7% (10)    25.9% (45)       174
               instead of contracts.


                                                                                     answered question        177


                                                                                       skipped question       482




                                                        33 of 78
55. Please provide any observations you have regarding the use of past performance
information in selecting an assistance partner.

                                                                                    Response
                                                                                     Count

                                                                                          36


                                                                answered question         36


                                                                 skipped question        623




                                         34 of 78
